U.S. Department of                       The Inspector General   Office of Inspector General
Transportation                                                   Washington, DC 20590
Office of the Secretary
of Transportation

March 22, 2007



The Honorable Barbara Boxer
United States Senate
Washington, DC 20510

Dear Senator Boxer:

Thank you for your letter of October 11, 2006, concerning the causes of “near misses”
(i.e., runway incursions or potential collisions on the runway) at Los Angeles
International Airport (LAX). Your request was prompted by an incident that occurred
on September 30, 2006, where two aircraft narrowly missed each other by 100 feet,
marking the eighth near-miss incident in fiscal year (FY) 2006.

Specifically, you asked us to determine: (1) why the September 30, 2006, incident and
other near misses were occurring; (2) if these incidents were the result of the poor
configuration of the runways at the airport; and (3) whether there is too much traffic
at the airport. To address your concerns, we analyzed runway incursion incidents at
LAX from FY 2003 through FY 2006; conducted a site visit; and interviewed local
Federal Aviation Administration (FAA), airport, and pilot representatives.

Based on your request, we also added LAX to our ongoing audit of actions taken by
FAA to address runway incursions at three large commercial airports. The objectives
of the audit are to assess the actions taken by FAA to (1) identify and correct the
causes of recent runway incursions at Boston Logan, Chicago O’Hare, and
Philadelphia International Airports and (2) address those issues that could affect
safety system-wide.

The enclosed briefing, which we provided to your staff on January 24, 2007, details
the results of our review at LAX.




Control No. 2007-007
                                                                                                               2

In summary, we found the following pertaining to the incidents at LAX:

    • The September 30, 2006, runway incursion occurred when the pilot of a
      Gulfstream corporate jet deviated from controllers’ instructions and taxied across
      an active runway as a Skywest regional jet was departing. The Skywest pilot saw
      the Gulfstream aircraft entering the runway and immediately aborted the take-off,
      stopping 100 feet from the other aircraft. The pilot of the Gulfstream indicated
      that he crossed the active runway because he was confused as to which side of
      runway 25R he was to hold short of. 1 According to the Gulfstream pilot, this was
      partly due to the closure of parallel runway 25L for construction purposes.

    • From FY 2003 through FY 2006, 32 runway incursions occurred at LAX.
      Twenty-six (81 percent) of these runway incursions were caused by pilot
      deviations. Most of the pilot deviations occurred because pilots failed to hold
      short of a runway as instructed by controllers. Pilots we interviewed indicated that
      due to the short distances between the parallel runways (750 feet from the runway
      centerlines), pilots landing and exiting the outboard runway are sometimes unable
      to stop prior to crossing the threshold of the inboard parallel runway. 2

    • Runway configuration appears to be a primary factor contributing to runway
      incursions at LAX. The airport is in the process of modifying the runway
      configuration to mitigate this factor by moving runway 25L 55 feet farther away
      from its parallel runway 25R to accommodate the construction of a centerfield
      taxiway between the two runways. The centerfield taxiway will be designed so
      that when aircraft exit runway 25L, they will have to slow down enough to make a
      turn before reaching the parallel runway 25R. The centerfield taxiway is
      scheduled to be complete by mid-2008.

    • Traffic does not appear to be a contributing factor to runway incursions at LAX.
      From FY 2001 to FY 2006, air traffic operations have decreased by 17 percent at
      LAX while the number of runway incursions each year has remained relatively
      constant. We also found that it was rare for actual hourly air traffic operations to
      exceed the airport arrival and departure rates. 3

    • FAA and the airport operator have taken numerous actions over the last several
      years to reduce the risk of runway incursions. For example, after the
      September 30, 2006, runway incursion, FAA air traffic management changed the
      phraseology used by controllers and eliminated any reference to runway 25L since

1
    “Hold short” is terminology used by controllers when instructing pilots to stop and not enter onto or cross a
    runway.
2
    The outboard runway is the runway farthest from the terminal area. The inboard runway is the runway
    closest to the terminal area.
3
    The “airport arrival and departure rate” represents the maximum number of aircraft that can land and depart
    within a given hour at an airport based on weather conditions, runway configuration, and traffic mix.


Control No. 2007-007
                                                                                     3

   it is temporarily closed. Other actions taken included issuing alert bulletins to
   controllers after each incident; revising local air traffic control procedures;
   meeting with pilots; developing a pilot education program; and improving airfield
   lighting, signage, and markings.

The results of our review at LAX and the three other large commercial airports
reviewed as part of our audit of runway incursions will be included in a separate audit
report, which we plan to issue later this year. The audit report will address systemic
issues and include recommendations to help improve FAA’s efforts to reduce runway
incursions.

If I can answer any questions or be of further assistance in this or any other matter,
please contact me at (202) 366-1959 or my Deputy, Todd J. Zinser, at
(202) 366-6767.

Sincerely,




Calvin L. Scovel III
Inspector General


Enclosure




Control No. 2007-007
                                     Enclosure
                                   Page 1 of 13


        Runway Incursions at
       Los Angeles International
               Airport




    DOT Office of Inspector General
 Congressional Briefing to Senator Boxer
           January 24, 2007




Control No. 2007-007
                                                      Enclosure
                                                    Page 2 of 13

Background

 ¾ FAA defines a runway incursion as any incident at an
   airport involving an aircraft, a vehicle, person, or an
   object on the ground that creates a potential collision
   hazard or results in a loss of separation with an
   aircraft taking off, intending to take off, landing, or
   intending to land. Runway incursions are classified
   into three types of operational categories:
       • Operational Errors (when the actions of a controller
         cause an incident),
       • Pilot Deviations (when the actions of a pilot cause
         an incident), and
       • Vehicle/Pedestrian Deviations (when the actions of
         a vehicle operator or pedestrian cause an incident).
 ¾ Runway incursions are also graded by severity of the
   incident (A through D). A Category A runway
   incursion represents an incident in which a collision
   was barely avoided, whereas a Category D runway
   incursion represents an incident where there was little
   or no chance of a collision. Categories A and B are
   considered the most serious.




Control No. 2007-007
                                                      Enclosure
                                                    Page 3 of 13

Senator Boxer’s Request

 ¾ On October 11, 2006, you wrote us regarding
   concerns about a recent incident at Los Angeles
   Airport (LAX) that occurred on September 30, 2006,
   where 2 aircraft narrowly missed each other by
   100 feet, marking the eighth near-miss incident in
   fiscal year (FY) 2006.

 ¾ Specifically, you asked:

         1. Why the September 30, 2006, incident and other
            near misses were occurring;
         2. If these incidents were the result of the poor
            configuration of the runways at the airport; and
         3. Whether there is too much traffic at the airport.
We also reviewed actions taken by the Federal Aviation
Administration (FAA), the airlines, and the airport
operator to mitigate runway incursions.




Control No. 2007-007
                                                   Enclosure
                                                 Page 4 of 13

Scope and Methodology of Review

To address your concerns we:

 ¾ Analyzed runway incursion incidents that have
   occurred at LAX from FY 2003 through FY 2006.

 ¾ Conducted a site visit at LAX November 13 to 17,
   2006, which included a tour of the airfield and the air
   traffic control tower.

 ¾ Interviewed representatives from FAA’s Air Traffic
   Control Tower, Regional Airports Division, and local
   Flight Standards District Office.

 ¾ Interviewed LAX Airport officials and local pilot
   representatives from United, American, Skywest, and
   Southwest Airlines.




Control No. 2007-007
                                                    Enclosure
                                                  Page 5 of 13

Summary

We found that:

 ¾ Historically, over 80 percent of the runway
   incursions at LAX were caused by pilot deviations.

 ¾ Runway configuration (i.e., closely spaced parallel
   runways) appears to be the biggest factor contributing
   to runway incursions. The airport is in the process of
   modifying the runway configuration to mitigate this
   factor.

 ¾ Traffic does not appear to be a contributing factor.
   Over the last 5 years, air traffic operations have
   decreased by 17 percent at LAX while runway
   incursions have remained at about the same level.

 ¾ FAA and the airport operator have taken numerous
   actions over the last several years to reduce the risk
   of runway incursions, including the following:
   issuing alert bulletins to controllers after each
   incident; revising local air traffic control procedures;
   meeting with pilots; developing a pilot education
   program; and improving airfield lighting, signage,
   and markings.



Control No. 2007-007
                                                                                          Enclosure
                                                                                        Page 6 of 13

Finding 1. Over 80 Percent of Runway Incursions at
LAX Are Caused by Pilot Deviations


                            Figure 1: LAX Runway Incursions
                                        FY 2003 to FY 2006
 10
                 9
                                                            8                           8
  8
                                            7                                    2 SERIOUS
                                        1 SERIOUS                                 July 2006
  6                                                                                 (Cat B)
                                          (Cat B)
                                         Aug. 2004                                     &
  4                                     Controller                                Sept. 2006
                                           Error                                    (Cat A)
                                                                                 Pilot Errors
  2

  0
               FY 2003                  FY 2004         FY 2005                   FY 2006
 Source: FAA


  The chart above (figure 1) depicts the total number of runway incursions at LAX by
  fiscal year. The number of runway incursions has remained relatively constant over
  the last 4 fiscal years. In total, there have been 32 runway incursions since FY 2003,
  including 3 serious (Category A/B) runway incursions. As shown in the pie chart
  below (figure 2), 26 of the 32 runway incursions at LAX (81 percent) were pilot
  deviations (errors). Of the 26, 18 were commercial pilots, 7 were general aviation, and
  1 was military.


                                            Figure 2:
                               Distribution of Runway Incursions
                                     by Operational Category
                                    FY 2003 Through FY 2006
                                                      6
                     Operational                     19%
                     Errors
                     Pilot
                     Deviations

                                                        Note: There w ere no runw ay
                                                        incursions caused by Vehicle/
                                             26         Pedestrian Deviations during
                     Source: FAA Data       81%         the 4-year period.




Control No. 2007-007
                                                                                                      Enclosure
                                                                                                    Page 7 of 13

Finding 2. Runway Configuration Appears To Be
the Biggest Factor Contributing to Runway Incursions

    ¾ For the 26 pilot deviations, 24 occurred because
      pilots failed to hold short1 of a runway. Fifteen of
      these involved pilots who, after landing on the outer
      runway, failed to hold short of the inboard parallel
      runway.2 This has occurred on both sides of the
      airport but is most prevalent on the south side.

          Pilots we interviewed indicated that due to the short
          distance between the parallel runways (750 feet from
          runway centerline), pilots (especially if they are not
          familiar with the airport) find themselves
          approaching the inboard runway very rapidly after
          landing and exiting the outboard runways. As a
          result, they are unable to stop before their aircraft
          cross the hold-short lines of the parallel runway,
          which can result in a runway incursion.




1
    “Hold short” is terminology used by controllers when instructing pilots who are taxiing aircraft to stop and not
    enter onto or cross a runway. Pilots must stop before a defined spot referred to as the hold-short line.
2
    The outboard runway is the runway farthest from the terminal area. The inboard runway is the runway closest to
    the terminal area.


Control No. 2007-007
                                                                Enclosure
                                                              Page 8 of 13

Finding 2. Runway Configuration Appears To Be
the Biggest Factor Contributing to Runway Incursions
(Continued)

 ¾ To mitigate this problem, the airport is re-locating the
   outboard runway (runway 25L/7R) approximately
   55 feet farther away from its parallel runway
   (25R/7L) to accommodate the construction of a
   centerfield taxiway between the runways. The
   centerfield taxiway will be designed so that when
   aircraft exit runway 25L/7R, they will have to slow
   down enough to make a turn before reaching the
   parallel runway hold-short line, thus reducing the risk
   of pilots crossing the hold-short line (see figure 3).
   The centerfield taxiway is scheduled for completion
   in mid-2008.
                       Figure 3: Runway and Taxiway Changes
                                   Under Construction




         Source: FAA


                         New                 Relocated        Runway
                       Centerfield            Runway          25R/7L
                        Taxiway               25L/7R




Control No. 2007-007
                                                                       Enclosure
                                                                     Page 9 of 13

Finding 3. Traffic Does Not Appear To Be a Factor in
Runway Incursions

 ¾ As shown in figure 4 below, from FY 2001 to
   FY 2006, air traffic operations at LAX have
   decreased from a total of 783,160 to 653,181,
   respectively.     This represents a decrease of
   129,979 operations or approximately 17 percent over
   the last 5 years. Figure 5 shows that during the same
   time period, runway incursions have remained at
   about the same level.
                                  Figure 4: Air Traffic Operations


                            800,000
                                              783,160
                            600,000                      653,181
                            400,000
                            200,000
                                   0

                                            FY 2001      FY 2006
                   Source: FAA's Air Traffic Activity Data System




                                      Figure 5: Runway Incursions



                                10

                                               9
                                           (3 Serious)   8
                                  5
                                                    (2 Serious)

                                  0
                                          FY 2001     FY 2006
                       Source: FAA Data



Control No. 2007-007
                                                                                                       Enclosure
                                                                                                    Page 10 of 13

Finding 3. Traffic Does Not Appear To Be a Factor
in Runway Incursions (Continued)

    ¾ We also reviewed hourly traffic counts to determine
      if LAX has periods when the actual traffic count was
      higher than the maximum airport arrival and
      departure rates.3 We reviewed data for the 9-month
      period prior to the closure of runway 25L
      (July 29, 2006) and for the 3 months since runway
      25L was closed for the core operational hours of
      7:00 a.m. to 9:59 p.m. As shown in the table below,
      we found it was rare for actual air traffic operations
      to exceed the maximum hourly capacity rates.
     Table: Comparison of LAX Actual Hourly Arrival and Departure Rates
        Versus Maximum Capacity Hourly Arrival and Departure Rates
              Dates             Total            Number of Arrivals                  Average            Average
                               1-hour             and Departures                      Actual            Maximum
                               Periods           That Exceeded the                    Hourly            Capacity
                              Reviewed           Maximum Capacity                      Rate              Hourly
                                                    Hourly Rate                                           Rate
         Pre-runway
         closure:
                                  4,095                    0 (0%)                      96.78                150.6
         Nov. 2005
         to July 2006
         Post-
         runway
         closure:
                                  1,380                 21 (1.52%)                     98.58               130.85
         Aug. 2006
         to Oct.
         2006
        Source: FAA’s Aviation System Performance Metrics System

3
    The “airport arrival and departure rate” represents the maximum number of aircraft that can land and depart within
    a given hour at an airport based on weather conditions, runway configuration, and traffic mix.


Control No. 2007-007
                                                        Enclosure
                                                     Page 11 of 13

Finding 4. Actions Taken To Mitigate Runway
Incursions at LAX

Over the last several years, FAA and the airport operator
have taken numerous actions to reduce the risk of runway
incursions. These include issuing alert bulletins (lessons
learned) to controllers after each incident, meeting with
pilots, participating in runway safety meetings, and
revising local air traffic control procedures. Examples of
more recent actions include the following:

 ¾ In February 2006, two runway incursions occurred on
   the north side of the airport because a controller
   forgot that he had changed the runway assignment of
   an arriving aircraft from 24R to 24L, cleared an
   aircraft to cross this same runway at the far end, and
   instructed another aircraft to taxi into position for
   departure on the same runway.           This incident
   occurred at 11:22 p.m. when only one controller was
   manning both local control positions (one for the
   north runways and one for the south runways).

       In response, air traffic management issued alert
       bulletins (lessons learned) to all controllers detailing
       the incident.




Control No. 2007-007
                                                      Enclosure
                                                   Page 12 of 13

Finding 4. Actions Taken To Mitigate Runway
Incursions at LAX (Continued)

       Management also mandated that the two local
       positions should remain open until approximately
       midnight and could no longer be combined without
       an assist position. Management issued a requirement
       that a supervisor will normally be on duty until
       midnight (versus the previous time of 10:00 p.m.).

 ¾ On September 30, 2006, a runway incursion occurred
   when the pilot of a Gulfstream aircraft deviated from
   the controller’s instruction and taxied across an active
   runway as a Skywest regional jet was departing. The
   pilot of the Gulfstream indicated that he was
   confused as to which side of runway 25R he was to
   hold short of and that this was partly due to the
   closure of runway 25L.

       In response to this incident, other runway incursions,
       and conversations with pilots, FAA air traffic
       management changed the phraseology used by
       controllers and eliminated any reference to runway
       25L (since it is closed and under construction).




Control No. 2007-007
                                                    Enclosure
                                                 Page 13 of 13

Finding 4. Actions Taken To Mitigate Runway
Incursions at LAX (Continued)

       Management also added wording to emphasize to
       pilots the requirement to hold short of runway 25R.
       This requirement will remain in effect until runway
       25L is reopened.

Other significant actions taken include:

 ¾ The inclusion of a warning on the airport diagram
   map used by pilots to caution them about the closely
   spaced runways.

 ¾ Distribution of a hot-spot map that depicts where
   runway incursions have occurred at the airport.

 ¾ Distribution of an instructional compact disc for
   pilots that highlights the closely spaced parallel
   runways.

 ¾ Improved lighting, signage, and markings on the
   airfield.




Control No. 2007-007
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here to
accommodate assistive technology.
Letter to Senator Boxer Regarding Runway Incursions at Los Angeles International
                                    Airport

                              Section 508 Compliant Presentation

Figure 1. Los Angeles International Airport Runway Incursions Fiscal Year 2003 to
Fiscal Year 2006

    Fiscal Year             Total Runway Incursions
 Fiscal Year 2003                     9
 Fiscal Year 2004                     7
                        (These 7 include 1 serious Category
                        B in August 2004 that was due to
                        controller error.)
 Fiscal Year 2005                         8
 Fiscal Year 2006                         8
                        (These 8 include 2 serious
                        incursions due to pilot errors: 1
                        Category B in July 2006 and 1
                        Category A in September 2006.)
Source: Federal Aviation Administration

Figure 1 depicts the total number of runway incursions at Los Angeles International
Airport by fiscal year. The number of runway incursions has remained relatively
constant over the last 4 fiscal years. In total, there have been 32 runway incursions since
fiscal year 2003, including 3 serious (Category A or B) runway incursions.

Figure 2. Distribution of Runway Incursions by Operational Category Fiscal Year
2003 Through Fiscal Year 2006

 Type of Runway Incursion            Number of Runway Incursions
 Operational Errors                       6 (or 19 percent)
 Pilot Deviations                        26 (or 81 percent)
Source: Federal Aviation Administration data

Note: There were no runway incursions caused by Vehicle/Pedestrian Deviations during
the 4-year period.

As shown in figure 2, 26 of 32 (81 percent) runway incursions at Los Angeles
International Airport were pilot deviations (errors). Of the 26, 18 were commercial
pilots, 7 were general aviation, and 1 was military.
Figure 4. Aircraft Operations

        Year             Number of Operations
 Fiscal Year 2001             783,160
 Fiscal Year 2006             653,181
Source: The Federal Aviation Administration’s Air Traffic Activity Data System

As shown in figure 4, from fiscal year 2001 to fiscal year 2006, air traffic operations at
Los Angeles International Airport have decreased from a total of 783,160 to 653,181,
respectively. This represents a decrease of 129,979 operations or approximately 17
percent over the last 5 years.

Figure 5. Runway Incursions

        Year             Number of Runway Incursions
 Fiscal Year 2001         9 (these include 3 serious)
 Fiscal Year 2006         8 (these include 2 serious)
Source: Federal Aviation Administration data

Figure 5 shows that from fiscal year 2001 to fiscal year 2006, runway incursions have
remained at about the same level.
